OFFICE OF INSPECTOR GENERAL


AUDIT OF USAID/EGYPT’S
EDUCATION SUPPORT
PROGRAM

AUDIT REPORT NO. 6-263-13-008-P
FEBRUARY 24, 2013




CAIRO, EGYPT
	
	


Office	of	Inspector	General


February 24, 2013

MEMORANDUM

TO:       	          USAID/Egypt Mission Director, Mary Ott

FROM: 	              Regional Inspector General, Catherine M. Trujillo /s/

SUBJECT:	            Audit of USAID/Egypt’s Education Support Program
                     (Report No. 6-263-13-008-P)

This memorandum transmits our final report on the subject audit. We have considered carefully
your comments on the draft report and have included them, without attachments, in Appendix II.

The report includes three recommendations to assist the mission in improving its management
and oversight of USAID/Egypt's Education Support Program. Based on management’s
comments on the draft report and other information provided, we acknowledge that the mission
made management decisions on all three recommendations and completed final action on
Recommendation 3.

Please provide the Office of Audit Performance and Compliance Division with the necessary
documentation to achieve final action on Recommendations 1 and 2. Recommendation 3 is
closed upon the issuance of this report.

Thank you for the cooperation and courtesy extended to the audit team during this audit.




U.S. Agency for International Development
USAID Office Building
1/A Nady El-Etisalat Street
Off El-Laselki Street
New Maadi
Cairo, Egypt
http://oig.usaid.gov
CONTENTS

Summary of Results ................................................................................................................... 1 


Audit Findings............................................................................................................................. 4 


     USAID/Egypt Did Not Include Methods for Assessing Training Impact .................................. 4 


     Program Did Not Include Important Elements for Sustainability ............................................. 5 


     One Program Activity Was Deleted, and Others Were Behind Schedule ............................... 7 


     Implementer Did Not Comply With Agency Training Database Requirements ....................... 8 


Other Matter................................................................................................................................. 9 


Evaluation of Management Comments................................................................................... 11 


Appendix I—Scope and Methodology .................................................................................... 12 


Appendix II—Management Comments ................................................................................... 14 


Appendix III—Program Indicators and Targets...................................................................... 18 





Abbreviations

The following abbreviations appear in this report:

ADS             Automated Directives System
AIR             American Institutes for Research
AOR             agreement officer’s representative
CDIST           Central Directorate for In-Service Training
FY              fiscal year
PAT             Professional Academy for Teachers
RIG             Regional Inspector General
TraiNet         Training Results and Information Network
UNESCO          United Nations Educational, Scientific and Cultural Organization
SUMMARY OF RESULTS 

USAID has supported educational programs in Egypt for more than 35 years, committing nearly
$1.3 billion to support school access, gender equity, community participation in schools, and
professional development for teachers and educational leaders. During that time, Egypt has
made significant strides in education, with 98 percent of children enrolled in primary school in
2010, compared with just 69.5 percent in 1970.

According to USAID/Egypt officials, following the January 2011 revolution, the mission and the
Egyptian Ministry of Education were concerned that these gains were in jeopardy. To address
this concern, USAID/Egypt awarded a cooperative agreement worth about $18.6 million to
American Institutes for Research (AIR) in September 2011 to implement the Education Support
Program. Initially the program was to run for 30 months, ending in March 2013, but in
October 2012, it was extended to September 2014.

The program was designed to strengthen local education systems to support professional
development and community involvement in educational decision-making and quality
improvement. It built on USAID/Egypt’s Education Reform Program, an $80 million, 6-year
basic education program that ended in 2010. The support program relied primarily on a
cascading process of hiring primary education specialists to train teachers.

The support program had three primary objectives:

	 Strengthening social work departments and boards of trustees: This objective was
   designed to improve the capacity of district-level social work departments and school boards
   of trustees to enhance community participation.1

	 Supporting the professional development of newly hired assistant teachers and
   social workers: This objective was designed to support assistant teachers and social
   workers hired immediately after the revolution.

	 Strengthening district-level instructional leadership: This objective was twofold. First, it
   was designed to support governorate- and district-level teacher professional development
   efforts. Second, it was designed to enhance the Ministry of Education’s capacity to plan for
   contingencies that could affect schools, including political and social disruptions and natural
   disasters.

As of the end of September 2012, USAID/Egypt had obligated $8.1 million and disbursed
$3.5 million for program activities.

The Regional Inspector General/Cairo (RIG/Cairo) conducted this audit as part of its fiscal year
(FY) 2013 audit plan to determine whether USAID/Egypt’s Education Support Program made
progress toward achieving its objectives to strengthen local education systems to support
professional development and community involvement in educational decision-making and
quality improvement.

1
  Boards of trustees are elected school governance structures that include parents and community
members. They are supported by social workers who are part of the district-level social work departments,
as well as social workers assigned to the board’s schools.


                                                                                                       1
As of September 2012—the end of the program’s first year—AIR had met or exceeded the
majority of the first year's indicator targets (included in Appendix III). For example, more than
33,000 newly hired assistant teachers and social workers were trained in core teaching skills.
Similarly, employees in more than 250 district-level social work departments were trained, and
people in these departments had, in turn, trained members of more than 11,000 school boards
of trustees.

Information obtained during site visits suggests that the training was well received; in particular,
assistant teachers said they were helpful. Because the program worked closely with the
Ministry of Education’s Professional Academy for Teachers (PAT) to certify more than
40 training programs, the ministry can use them to train teachers in the future.

Despite these successes, the overall impact on school board capacity and teacher performance
is unclear. The mission and AIR had no mechanisms in place to determine whether the training
efforts had any impact (page 4). Therefore, it is difficult to measure the extent to which the
program is contributing to its overarching goal of strengthening educational systems to support
local capacity and professional development.

As the program starts its second year, the audit identified the following problems.

	 The program’s designers did not include two important elements for sustainability (page 5).
   They did not address how to work with teachers and administrators at the local level who
   resisted the training’s offerings, and they did not include coordination with a relevant office
   within the Ministry of Education.

	 Two program activities were behind schedule (page 7). Program activities related to both
   crisis management training and gender strategy were behind schedule.

	 AIR did not comply with requirements to record participant training in the Agency’s Training
   Results and Information Network (TraiNet) (page 8).

The audit also determined that documents prepared as part of prior USAID/Egypt Education
Reform Program, on which the support program was based, had not been submitted to an
Agency clearinghouse, as required. This problem is discussed in “Other Matter” (page 9).

The audit recommends that USAID/Egypt improve the effectiveness of the program and mission
operations by:

1. 	 Implementing a corrective action plan that establishes (1) indicators to measure the impact
     of the Education Support Program and (2) a method for analyzing indicator results (page 5).

2. 	 Obtaining written confirmation from the Ministry of Education assigning full responsibility for
     the implementation of teacher training, including budgetary resources, to the Professional
     Academy for Teachers (page 7).

3. 	 Implementing procedures to confirm that (1) AIR is entering required data in the Training
     Results and Information Network, and (2) mission employees are monitoring this as required
     (page 9).




                                                                                                       2
Detailed findings follow. The audit scope and methodology are described in Appendix I. Our
evaluation of management comments is included on page 11, and the full text of management
comments is in Appendix II.




                                                                                             3
AUDIT FINDINGS 

USAID/Egypt Did Not Include
Methods for Assessing Training
Impact
USAID’s Automated Directives System (ADS) 253, “Participant Training for Capacity
Development,” requires missions implementing participant training financed by the Agency to
“design, implement, and track the training . . . for . . . impact, with the ultimate aim of
strengthening institutional or organizational capacity.” The ADS further defines “training impact”
as improvements in job or organizational performance that are attributable to “new skills,
knowledge, and attitudes acquired during training and applied at work settings.”

During its first year, the program trained more than 33,000 teachers, as well as employees in
250 social work departments. However, despite the ADS requirements, it did not have a system
in place to determine how much these trainees applied their new skills or the impact the training
had on teaching outcomes and on school board capacity. Instead, the program’s indicators and
targets related to training focused exclusively on numbers of people trained.

By the end of the program’s first year, mission officials had not decided whether they would
conduct a midterm or final evaluation of the program—either of which could have provided more
information on impact. At the start of the second year, USAID/Egypt and AIR had another
opportunity to incorporate outcome measures into program monitoring when they revised the
performance management plan after modifying the agreement; however, by the end of audit
fieldwork, the draft of the revised plan still did not include any.

Mission officials gave two reasons for not including mechanisms to measure impact.

First, the program was designed quickly to respond to the Ministry of Education’s immediate
needs following the January 2011 revolution. At that time, the ministry had hired approximately
130,000 assistant teachers who worked under contract previously and had varying levels of
training. The program was designed to focus primarily on training those teachers and building
on activities of the Education Reform Program to strengthen the social work departments that
support school boards.

However, even though the reform program lasted for more than 6 years and cost approximately
$80 million, it was never formally evaluated (though some reviews were done of different
components). Therefore, the level of impact was unknown. Had the reform program been
formally evaluated, the support program would have had a more solid foundation on which to
base its program activities.

Second, the mission’s agreement officer’s representative (AOR) said assessing a program that
was nationwide in scope and involved large numbers of trainees was not possible, given the
original duration of 30 months.

However, previous USAID/Egypt-funded programs developed multiple tools to measure
management effectiveness and assess teaching practices. During the support program’s first
quarter, AIR used some of the tools as part of a rapid assessment to identify priority areas.



                                                                                                     4
These same tools could have been used to evaluate the program’s overall impact.
Furthermore, given that the assessment was completed in a relatively short time (within the
first two quarters of the program), USAID/Egypt and AIR could have incorporated a follow-up
into the design to get information on the extent to which needs have changed because of
activities.

As noted in USAID’s evaluation policy, the Agency is a steward of “public resources to promote
sustainable development in countries around the world.” Training in and of itself may enhance
beneficiaries’ skills and knowledge. However, by not measuring the extent to which trainees are
applying their new skills, USAID/Egypt has no way of knowing whether program activities are
actually strengthening the capacity of the teacher or school or improving teaching outcomes. To
make sure public resources are used effectively, USAID/Egypt must be able to determine
whether funded activities are having a significant, sustainable impact or whether resources
should be redirected to other uses. Therefore, we make the following recommendation.

   Recommendation 1. We recommend that USAID/Egypt implement a corrective action
   plan that establishes (1) indicators to measure the impact of the Education Support
   Program and (2) a method for analyzing indicator results.

Program Did Not Include Important
Elements for Sustainability
According to ADS 202.3.5.3, “Supporting Coordination and Collaboration with Partners, Host
Country Entities, Other Donors, and Customers,” USAID plays a critical role as a coordinator
with respect to its partners and host-country governments. Furthermore, ADS 201, “Planning”
emphasizes that missions should build the capacity of host governments to achieve sustainable
results and should use the resources of host countries and others to maximize the impact of
development assistance.

While the program has supported a large number of trainings for teachers, social work
departments, and boards of trustees, the sustainability of these activities is questionable. The
program’s designers did not address how to work with teachers and administrators at the local
level who resisted the training, and they did not include coordination with a potentially key
Ministry of Education office.

Long-Term Impact of Training Activities. RIG/Cairo met with 35 assistant teachers in
four governorates. They said the training taught them a variety of skills, including planning,
classroom management, and performance evaluation. One assistant teacher said that based
on what he learned in the training, he collects anonymous feedback on his performance from his
students on a regular basis and then uses the information to make improvements.

However, the assistant teachers consistently said they had difficulty applying the skills because
of resistance on the part of other teachers and school officials. For example, one assistant
teacher wanted his science students to conduct experiments themselves, in keeping with
teaching methods he learned during the training. However, the head teacher did not approve,
insisting that the students should watch while the assistant teacher conducted the experiments.

Assistant teachers said they would have been able to use their new skills better if the program
had also trained senior teachers or school principals. However, because the Ministry of




                                                                                                    5
Education’s primary interest was to train the newly hired assistant teachers, the mission chose
not to include training for other school employees.

This resistance is not new; according to the AOR, getting senior staff members to accept new
teaching skills has been a problem for past USAID/Egypt-funded programs.                 In the
October 2012 modification, the mission acknowledged the difficulties assistant teachers could
encounter by stating that training efforts can be “hindered or supported by. . . school leaders
depending on their competence and adherence to their role as instructional leaders.” The
mission modified the agreement to include training for more than 10,000 senior teachers and
3,000 school leaders.

Similarly, several social workers and school board members interviewed reported that the
impact of the trainings on board capacity was limited. While members of more than
11,000 boards have received some level of training, boards are considered to have received
training even if only one person participated. This person would be responsible for sharing
information with fellow board members. However, the extent to which this occurred was
unknown because the program did not collect information on changes in board behavior.
Interviews with boards of trustees showed little change in the organizational capacity and needs
of the boards over the duration of the program.

Social workers and board members said the training efforts also were restricted by lack of
resources at the local level. Unlike the teachers’ training, the program did not provide any
support for training school boards; social workers interviewed said they paid out of pocket to
copy materials they used when training the boards. Social workers and board members also
said that board members did not have enough time for training on the part of board members
and that school officials resisted the training.

Coordination With Relevant Ministries. Throughout the program’s first year, AIR worked
closely with the Ministry of Education’s PAT. Begun in 2007 with support from the Agency, PAT
was responsible for designing, planning, coordinating, monitoring, and evaluating teacher and
educational leader professional development activities. It was also responsible for licensing and
certifying teachers, trainers, and accredited training programs.

Through the support program, AIR actively engaged PAT to accredit training curriculum and to
certify trainers for its assistant teacher and social work department training programs in hopes
that the materials and trainers would be available for the ministry after the program ended.
However, while PAT played a vital role in teacher and educational leadership development, the
ministry’s Central Directorate for In-Service Training (CDIST) was the office responsible for
actually providing the training to teachers, using PAT-approved materials and trainers. CDIST
approved all governorate, district, and school-level training plans. Furthermore, CDIST, unlike
PAT, had funding to provide training at the school, district, or governorate levels. According to
AIR officials, the relationship between PAT and CDIST was strained at times.

In its cooperative agreement with AIR, USAID/Egypt recognized CDIST’s role in teacher
professional development, noting that every governorate had a small budget to implement their
CDIST-approved professional development plan. However, beyond this recognition of authority,
USAID/Egypt did not engage CDIST in designing or implementing the training component. A
mission official said that when the mission was designing the program, CDIST’s future was
unclear, and the mission had an ongoing relationship with PAT stemming from prior
USAID/Egypt programs. Furthermore, because CDIST used PAT-certified curriculum and
trainers, the mission felt that coordinating primarily with PAT was the best way to go.


                                                                                                    6
AIR and mission officials said the ministry had discussed giving PAT responsibility for training
budgets. Additionally, in October 2012—a full year into the program—the ministry issued a
decree that assigned additional responsibilities to PAT. During a meeting a month later,
ministry officials said CDIST would be subsumed into PAT. However, neither of those changes
had taken place by the end of the audit’s fieldwork.

Support for the training comes through the program, as well as through the school, district, and
governorate education systems. However, by not building the capacity of school officials or
coordinating with all the relevant partners in the Ministry of Education, USAID/Egypt might have
limited the extent of the activities. While the October 2012 modification took steps to build the
capacity of senior school staff, there was no indication that either the mission or AIR intended to
monitor the extent to which these activities actually addressed the concerns expressed by
assistant teachers. As recommended in the prior finding, USAID/Egypt should establish
indicators to measure the impact of program activities.

Furthermore, while the ministry issued the decree expanding PAT’s authority, the extent to
which this decree has been implemented is unclear. If PAT does not take full responsibility for
teacher professional development, the extent to which CDIST, responsible for in-service
training, would choose to use these program-supported materials is unknown. Therefore, we
make the following recommendation.

   Recommendation 2. We recommend that USAID/Egypt obtain written confirmation
   from the Ministry of Education assigning full responsibility for the implementation of
   teacher training, including budgetary resources, to the Professional Academy for
   Teachers.

One Program Activity Was Deleted,
and Others Were Behind Schedule
As part of its effort to strengthen boards of trustees, the program planned to award competitive
subgrants to boards to conduct activities that would address challenges they faced because of
the January 2011 revolution. In addition, two of the program’s consistent themes were
improving the Ministry of Education’s ability to plan for crises, including political upheavals and
natural disasters, and increasing the participation of women in educational governance
processes. To address these, the cooperative agreement’s first-year work plan included
two activities related to contingency planning and one regarding gender.

However, the mission modified the program to delete the planned subgrants, and AIR was
behind schedule on one of the activities related to contingency planning as well as the one
related to gender.

Board of Trustees Subgrants. The initial program design included $4 million to be awarded
as subgrants to local boards of trustees to help them implement activities at the school level.
However, during the course of the program’s first year, USAID/Egypt, AIR, and the Ministry of
Education determined that this proposed activity was not viable because of problems stemming
from the Egyptian public’s perception of USAID.

So the program was modified in October 2012, and funds were reprogramed to allow AIR to
implement many of the types of activities that the mission anticipated would be supported
through subgrants. For example, the program plans to support school boards in selected



                                                                                                      7
districts to organize science clubs, and to collaborate with the boards to address poor reading
and writing skills. Some of the reprogrammed funds were also slated to be used to increase the
number of assistant teachers and social work department staff members trained.

Crisis Management Trainers. Despite the program’s first year target to train 27 teams of crisis
management trainers, AIR had not trained any. According to mission officials, implementing the
assistant teacher and social work department training activities were substantially more complex
than the contingency activities, and those trainings took precedence. Since the training
activities were delayed, so were the contingency activities.

In addition, AIR officials said they delayed the contingency activities when they discovered that
the United Nations Educational, Scientific, and Cultural Organization (UNESCO) had ongoing
activities related to educational contingency planning. Mission officials said they did not
coordinate with other donor organizations when designing the program primarily because they
believed that donors were not working in the same areas of teacher or board capacity
development. AIR identified UNESCO’s activities while conducting preliminary research on
existing crisis management resources.

Because of these delays, AIR moved the crisis management training to the program’s
second year and plans to work with UNESCO to coordinate efforts. The USAID/Egypt AOR
said that when the program was designed initially, some schools were still closed following the
2011 revolution, and parents were afraid to send their children to those that were open—the
types of crises USAID/Egypt hoped the program’s contingency management component could
address in the future.

Gender Strategy Development and Implementation.                      The program’s first-year
implementation plan called for AIR to design and implement a strategy to increase women’s
participation in schools. However, as of the end of that year, the program had not completed
this activity. AIR officials said they were behind schedule because they had difficulty identifying
and hiring a gender consultant with the skills needed to develop the strategy. While a
consultant was hired to start this work toward the end of the program’s first year, the bulk of this
effort was moved to the second year.

Given the political environment in Egypt, the mission’s decision to reprogram funds from
subgrants to other, more viable, activities was reasonable. Furthermore, since the program was
extended to September 2014, it is reasonable to expect that AIR has sufficient time to complete
the other delayed activities. Therefore, we have no recommendations at this time.

Implementer Did Not Comply With
Training Database Requirements
ADS 253 requires that information about any participant training that exceeds 2 days or
16 hours, including in-country training, be entered into USAID’s Training Results and
Information Network (TraiNet). That information includes the name of the program, subject of
the training, start and end date, number of participants, and total training cost. This information
must be entered within 30 days of the end of the quarter of each federal fiscal year. A reference
to ADS 253 and these requirements was included in the program agreement.

However, AIR did not enter any information on trainings and trainees in TraiNet until
October 2012, more than 1 year into the program and after more than 33,000 beneficiaries and



                                                                                                       8
groups had participated. In early October 2012, the USAID/Egypt participant training assistant
notified the staff that all mission-supported participant trainings needed to be entered into
TraiNet no later than October 31, 2012. AIR then worked with the mission to secure a TraiNet
log-in and reported having entered all required training information into the system by the
deadline.

This delay was caused by two factors: AIR and USAID/Egypt staff members did not understand
TraiNet requirements, and the mission had personnel problems.

AIR incorrectly believed it could wait until the program’s monitoring database was fully
operational and tested before entering information into TraiNet. However, regardless of internal
data systems, the cooperative agreement requires AIR to comply with the time frames for
TraiNet reporting as explained in ADS 253. The TraiNet system is independent of the
implementer’s program monitoring efforts, and, as such, data can be entered in keeping with the
ADS requirements.

Additionally, the program AOR was not aware that information on trainings had to be entered
into TraiNet on a quarterly basis. Mission officials acknowledged that AORs and contracting
officer’s representatives (CORs) are not always fully aware of the TraiNet requirements and
might not know to follow up on them with implementers.

Adding to the delays, the USAID/Egypt employee responsible for TraiNet left unexpectedly in
August 2012. Mission officials said this employee generally was unwilling to provide information
or assistance to AIR and mission employees on TraiNet and its requirements. TraiNet duties
have since been reassigned, and the mission has begun providing information to its staff and
AIR on the database.

While information on training activities forms the bulk of the program’s indicators, data from
these indicators are reported to USAID/Washington annually as part of the mission’s
performance plan and report. The data collected in TraiNet can provide more timely information
and serves as USAID’s single repository of data for all training. Lack of complete information
limits the Agency’s ability to provide accurate information to Congress and other interested
parties in a timely manner. Therefore, we make the following recommendation.

   Recommendation 3. We recommend that USAID/Egypt implement procedures to
   confirm that (1) American Institutes for Research is entering required data in the Training
   Results and Information Network, and (2) mission staff members are monitoring entry of
   this information as required.

Other Matter
According to ADS 540, “Development experience is the cumulative knowledge derived from the
planning, design, implementation, evaluation, and results. . . of programs.”            USAID’s
Development Experience Clearinghouse, managed by the Agency’s Knowledge Management
Branch, is the primary repository of institutional history and is designed to provide “accurate,
comprehensive, and timely information on the Agency's development experience.” To
accomplish this goal, implementers are required to submit reports or deliverables that they
produce under USAID-funded programs to the clearinghouse. The ADS assigns responsibility
for monitoring implementer compliance with this requirement to AORs or other individuals most
familiar with the awards.



                                                                                                   9
According to mission officials and documents, the support program is built on the work of
USAID/Egypt’s Education Reform Program, and some of the same staff from the Office of
Education and Training were involved in both. During the course of this audit, the audit team
sought multiple documents that implementers produced for the reform program; however,
neither the audit team nor staff from the USAID’s Knowledge Services Center could locate these
documents in the clearinghouse. The reform program’s AOR said the implementer was
supposed to send documents to the clearinghouse, not the AOR. (Eventually mission
employees provided copies of some documents.)

While the mission offered its staff training on the clearinghouse in September 2012, none of the
11 employees who participated were from the Office of Education and Training, which was
responsible for the reform program.

The clearinghouse allows missions to incorporate lessons learned and contextual information
into planning to improve program performance. Not submitting documents produced as part of
USAID/Egypt-funded programs limits the ability of Agency personnel—including USAID/Egypt
staff members—implementers, and others to learn from experience.

Following discussion of this matter with USAID/Egypt, information on the clearinghouse was
provided to the Office of Education and Training and to implementers. The mission also began
to develop a reminder of the clearinghouse requirement for all employees. Given these actions,
we make no suggestions at this time.




                                                                                               10
EVALUATION OF MANAGEMENT
COMMENTS
In its comments on the draft report, USAID/Egypt agreed with Recommendations 1 and 3 and
did not agree with Recommendation 2. We have acknowledged management decisions on all
recommendations, and final action was taken on Recommendation 3. A detailed evaluation of
management comments follows.

USAID/Egypt also asked us to remove the reference to the deletion of a program activity from
the second finding heading presented on page 7. However, because the heading accurately
reflects what occurred and the finding clearly states that the mission's decision to reprogram
funds to other, more viable, activities was reasonable, we did not change the finding heading.

Recommendation 1. USAID/Egypt said the staff is working with the implementer in developing
two indicators to measure the program's impact and will use the data from these indicators to
develop program recommendations and conclusions. Target completion date for these actions
is February 14, 2014. As a result, we acknowledge that the mission made a management
decision on Recommendation 1.

Recommendation 2. USAID/Egypt disagreed with the recommendation to obtain written
confirmation from the Ministry of Education assigning full responsibility for teacher training,
including budgetary resources, to PAT. However, the mission's alternative action of obtaining
the ministry's revised organizational chart is sufficient and, as such, we acknowledge that the
mission has made a management decision on Recommendation 2. Target completion date for
this action is March 1, 2013. Final action will be taken when the mission obtains the revised
organizational chart showing PAT’s role.

Recommendation 3. USAID/Egypt and implementer staff members attended TraiNet training
in December 2012, and the mission has established a system to ensure that they are monitoring
the entry of information into TraiNet. Based on the mission's comments and supporting
documentation provided, we acknowledge that the mission made a management decision and
final action has been taken on Recommendation 3.




                                                                                            11
                                                                                      Appendix I



SCOPE AND METHODOLOGY
Scope
RIG/Cairo conducted this audit in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and conclusions based on
our audit objective. We believe the evidence obtained provides that basis.

The purpose of this audit was to determine whether USAID/Egypt’s Education Support Program
was making progress toward achieving its goal of supporting the provision of educational
services in Egypt through strengthening local capacity, supporting professional development of
newly hired assistant teachers, and strengthening instructional leadership. The mission
awarded AIR a 30-month cooperative agreement worth about $18.8 million on
September 13, 2011. In October 2012 the program was extended to September 20, 2014. As
of September 30, 2012, $8.1 million had been obligated and $3.5 million disbursed under the
program, of which approximately $2,900 was tested through trainings the team observed during
site visits.

The audit covered the program’s first year, from September 13, 2011, to September 30, 2012.
In planning and performing this audit, we assessed mission internal controls related to proper
approval of documents, data verification, reporting, and establishment and review of
performance measures and indicators. We also reviewed the internal controls in place to
monitor program activities. Those controls included but were not limited to data quality
assessments, AOR files, annual and quarterly reports, and portfolio reviews.

We conducted audit fieldwork at USAID/Egypt in Cairo and at AIR’s offices and field locations in
Cairo, Gharbeya, Qena, and Suez.          The work took place from November 4 to
December 16, 2012.

Methodology
To answer the audit objective, we interviewed personnel from the mission and AIR, officials in
the Ministry of Education, and program beneficiaries. In addition to interviewing key personnel
and making on-site observations, we reviewed reports and files that the mission and AIR
maintained as part of their program monitoring activities. We obtained an understanding of the
program and how USAID/Egypt monitored and measured results by reviewing the cooperative
agreement, subsequent modifications, the performance management plan, AIR’s annual
implementation plan, and progress reports. We reviewed the mission’s FY 2011 Federal
Managers’ Financial Integrity Act assessment, the oversight performed by the AOR (like site
visit reports), and performance measures. Furthermore, we reviewed applicable laws and
regulations and USAID policies and procedures, including ADS Chapters 201 (“Planning”),
202 (“Achieving”), 253 (“Participant Training for Capacity Development”), and Title 22 of the
Code of Federal Regulations, Part 226, “Administration of Assistance Awards to U.S. Non-
Governmental Organizations.”

To verify reported program results, we validated results for the seven indicators for which data
were available. We tested the full universe of data for two and selected a statistical sample for



                                                                                              12
                                                                                      Appendix I


each of the other five. To test the indicators, we (1) traced results AIR reported to supporting
documentation and records, (2) observed program training, and (3) interviewed mission and AIR
staff members, national and local government officials, and beneficiaries. In addition, we
reviewed program design elements, supervisory approvals, and the level of monitoring the AOR
and USAID/Egypt conducted by reviewing program design documents and site visit reports.
Results for each indicator can be generalized to the full population of reported results for that
indicator. Based on this sample, we consider that data were sufficiently reliable to address the
audit objective.

We conducted site visits to a judgmental sample of four of the program’s five regions, selecting
one governorate within each one. To select the sites, we considered the number of trainings
conducted and the number of people trained to date in the governorates, and any overlap in the
governorate with prior USAID/Egypt education programs. In addition, we considered which
districts in the governorate had been part of a preliminary assessment the program conducted
to identify priority areas, and which districts had training ongoing during the audit period.

During site visits, we verified compliance with USAID branding requirements and determined the
extent to which beneficiaries were aware of the source of program funding. In addition, we
considered gender and human trafficking requirements to note any evidence of
noncompliance. We interviewed beneficiaries to determine whether the program was meeting
their needs and to learn about their experiences with AIR and USAID/Egypt. The results of
these site visits cannot be generalized to all program activities and sites.




                                                                                              13
                                                                                     Appendix II



MANAGEMENT COMMENTS 



Memorandum

To:        Catherine Trujillo, RIG/Cairo

From:      Mary Ott, Mission Director USAID/Egypt /s//

Date:      February 14, 2013

Subject:   Management Comments to RIG/Cairo Draft Audit Report - Audit Recommendations
           No. 1, 2 and 3 for USAID/Egypt Education Support Program No. AID 263-A-11-
           0010


USAID/Egypt appreciates the time and effort that the Regional Inspector General Cairo
(RIG/Cairo) staff devoted to its work on the audit report of “USAID/Egypt Education Support
Program (ESP)”. We would like to commend the drafters for the clarity and conciseness of the
Audit Report. We believe the ESP Project has been very successful in responding to a request
from the Government of Egypt for assistance in training approximately 130,000 new teachers.
The audit took place approximately halfway through the Life of Project which is ideal in terms of
allowing for sufficient time to incorporate suggestions for improvements to the program. We
would like to thank you for the opportunity to provide Mission comments on the draft audit
report.


Recommendation No.1.

We recommend that USAID/Egypt implement a corrective action plan that establishes (1)
indicators to measure the impact of the Education Support Program and (2) a method for
analyzing indicator results.

Management Response

Recommendation Component 1 -

We concur with this recommendation and the importance of measuring the outputs (number of
teachers trained) and their impact. We are currently working with the implementer to include
indicators to better measure impact in the current Performance and Monitoring Plan.



                                                                                               14
                                                                                       Appendix II



The implementing partner will apply two measurement tools to achieve this:
    The Standardized Classroom Observation Protocol for Egypt (SCOPE) to assess the
      extent to which the teachers are utilizing desired practices; and
    The Board of Trustees Assessment Tool (BOTAT), which measures the extent to which a
      given Board of Trustees is utilizing best practices promoted in the training.

Recommendation Component No. 2
We concur with this recommendation. After collecting this data the implementing partner, the
technical office and program will analyze the data to develop conclusions and recommendations.

In view of the above, the mission believes that management decision has been made for the
two Recommendation No. 1 components 1 and 2. The target date for completing the
corrective action is February 14, 2014


Recommendation No. 2.

We recommend that USAID/Egypt obtain confirmation, in writing, from the Ministry of
Education assigning full responsibility for the implementation of teacher training,
including budgetary resources, to the Professional Academy for Teachers.

Management Response

USAID does not concur with this recommendation. Given the issuance of the law and decrees
described below, USAID is confident that program supported materials will continue to be
utilized. It would be superfluous to require additional documentation from the MOE.

Education law 155 issued in 2007 (which can only be modified by Parliament), clearly states that
the Professional Academy for Teachers (PAT) is the entity responsible for teacher training,
including the certification of trainers, training courses and training providers. Accordingly, any
teacher training authority can only use PAT's certified trainers and training courses to comply
with Education Law, regardless of where the funding resides. Since its establishment in 2007,
PAT has been working on developing its systems, organizational structure, certification
procedures and processes, etc. With USAID support, PAT was able to finalize its certification
system and certify several training courses, including the induction program, which was
delivered to hundreds of trainers. Hence, the Mission is confident that PAT, as an authority
established by the Education Law, is sustainable and reliable to certify and carry on training even
after the project ends.

 USAID managers and implementing partner should be commended for their foresight in
recognizing that CDIST was unlikely to exist for much longer and developing the capacity of the
MOE entity (PAT) that would ultimately be responsible for all aspects of MOE training.

The Ministry has been considering several options to redefine the role of CIDST so that it
complements the role of PAT rather than duplicates it. The Ministry of Education, informed


                                                                                                15
                                                                                       Appendix II


USAID in late January 2013 that the new organizational chart for the ministry is expected to be
published within the next month. The expected new arrangement will merge CDIST with PAT.
CDIST will cease to exist. When USAID receives a copy of this organizational chart, it will be
shared with the IG. However, it would not be appropriate for USAID to request the Ministry to
prepare any special documentation to clarify other government decrees that it has issued. As the
draft audit report points out (page 7) the Ministry of Education (MOE) has already issued a
decree expanding PAT’s authority (Decree No. 394 dated Oct. 8, 2012). In article two (a) of this
decree it is clearly stated that PAT is the only entity approving the annual training plan.

In addition, PAT issued a letter dated Dec. 12, 2012, declaring that the completion of the ESP
teacher training course, "Teaching Applications in the Classroom” is considered the single pre-
requisite for teacher certification. Similarly, the ESP's "Educational Applications in the School"
for Assistant Social Workers replaces previous certification tests.

PAT’s letter requires the use of SCOPE tools by school principals and supervisors and requires
that SCOPE be included in the portfolio an educator submits for certification. These
requirements further support the institutionalization of training and monitoring programs
developed under ESP and are the direct result of a considerable effort to the part of ERP and
ESP to put in place sustainable teacher in-service professional development systems and
practices.

USAID does not concur with Recommendation No. 2. In light of the Mission response, USAID
requests that RIG/Cairo close this recommendation upon issuance of the final audit report.

Recommendation No. 3

We recommend that USAID/Egypt implement procedures to confirm that (1) American
Institute for Research is entering required data in the Training Results and information
Network, and (2) mission staff is monitoring entry of this information as required.

Management Response

The Mission concurs with this recommendation and has taken the following action:

   (a) The ESP Monitoring & Evaluation Team sent TRAINET data entry (R1) staff and
       verifier (R2) staff to attend the TRAINET training conducted in the mission on Dec. 16 &
       17th, 2012. This training clearly explained to the implementing partner as well as USAID
       staff how data should be entered in each quarter, (See attachment)

To ensure that the implementing partner is entering the data, the Mission’s Participant Training
Assistant will, henceforth, print TRAINET reports that will be verified by the AOR on a
quarterly basis.

In view of the above, the mission believes that final action has been taken for the
Recommendation No. 3 components 1 and 2, thus, requests closure of the recommendation
upon final report issuance.


                                                                                                16
                                                                                      Appendix II



Annex: Other Comments

ESP is a successful USAID project which has built strong relationships with Ministry of
Education interlocutors, and, as the audit points out, has succeeded in meeting the target
indicators. We believe the way in which the heading is phrased on page 7, (“One Program
Activity Was Deleted, and Others Were Behind Schedule”) is overly negative and might lead a
reader to conclude that USAID is at fault for one of the activities having been suspended. The
Mission would suggest that the heading be revised to read: “Two Activities Were Delayed”. As
with most development programs, once implementation is underway, there may be changes in
the environment which necessitate changes in the program. Such was the case of the Board of
Trustee Sub grants. The Ministry of Education advised USAID/Egypt in December 2011, that
awarding sub grants would not be feasible given problems stemming from the public perception
of USG funding. As a result, USAID reevaluated the activity and felt it was best for the project
to reprogram these funds. The heading has a negative connotation when in fact USAID took the
appropriate corrective action in that situation. Regarding the delay on two activities, due to the
unrest in Egypt and the teacher’s continuous demonstrations, the Government’s higher priority at
the time the Agreement was awarded was to provide training to untrained teachers. Thus,
gearing up for this mammoth activity, took precedence over developing contingency planning
capacity and increasing the participation of women on school boards. Both of these activities
have been included in the current work plan and will be completed.




                                                                                               17
                                                                                            Appendix III


                    Education Support Program Indicator Results as of Year 12
    Indicator                                    Year 1 Target       Year 1 Actual      Target Met?
    Number of social work units received
    program-developed, Ministry of                     260                 268              Yes
    Education-endorsed training package.
    Number of boards of trustees receiving
    Ministry of Education-endorsed training         10,000              11,100              Yes
    package.
    Rapid assessment tool developed and
                                                          1                   1             Yes
    used.
    Teacher performance self-assessment
    tool developed and approved by Ministry              1                    1             Yes
    of Education
    Number of district level master trainers
    certified to deliver PAT’s teacher
                                                       520                  323              No
    professional development program to
    assistant teachers.*
    Number of newly hired assistant teachers
                                                    22,500               33,938             Yes
    received PAT-certified training package.
    Percentage of newly hired teachers who
    successfully passed PAT-certified                   80                   99             Yes
    training course.
    * This indicator is dependent on both the program-supported training and final certification of the
    master trainers by PAT. At the time of audit fieldwork, AIR reported having trained more than
    520 master trainers, but had received certification documentation from PAT for only 323 of those.




2
    Audit validated results.


                                                                                                      18
U.S. Agency for International Development 

       Office of Inspector General 

      1300 Pennsylvania Avenue, NW 

          Washington, DC 20523 

            Tel: 202-712-1150 

            Fax: 202-216-3047 

           http://oig.usaid.gov
